Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       NEW YORK IMPROPERLY
         CLAIMED MEDICAID
        REIMBURSEMENT FOR
      FAMILY-BASED TREATMENT
      REHABILITATION SERVICES

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                      March 2013
                                                     A-02-10-01024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Section 1905(a)(13) of the Act authorizes optional rehabilitative services, including any medical
or remedial services (provided in a facility, a home, or other setting) recommended by a
physician or other licensed practitioner of the healing arts within the scope of his or her practice
under State law, for the maximum reduction of physical or mental disability and restoration of an
individual to the best possible functional level.

In New York State (the State), the Department of Health (State agency) administers Medicaid.
The State elected to include, under a program administered by its Office of Mental Health
(OMH), Medicaid coverage of family-based treatment (FBT) rehabilitation services provided to
recipients between the ages of 5 and 19. FBT rehabilitation services include training and
assistance with daily living skills; medication management; and socialization, counseling, family
support, and health services.

State requirements for Medicaid reimbursement of FBT rehabilitation services state, in part, that:
(1) providers must have at least 11 qualifying face-to-face contacts with the recipient for a
monthly claim or 6 qualifying face-to-face contacts for a semimonthly claim; (2) each contact
must be at least 15 minutes in duration; (3) an initial authorization for services must include a
physician’s face-to-face assessment of the recipient; (4) a physician must renew authorizations
every 6 months and have a face-to-face contact with the recipient; (5) reauthorization for services
must be based on a review of a summary of the recipient’s 3-month service plan review or a
review of the complete case record of the recipient; (6) authorized staff must record monthly
progress notes based on daily logs that trained professional parents keep, and the service
provider must review them weekly; (7) an eligible recipient must be in residence for at least 21
days in a calendar month for a monthly claim; (8) a contact that occurs while a recipient is a
hospital inpatient or while residing in any other residential facility is not a reimbursable contact;
(9) a qualified mental health staff person must prepare a note when the recipient is admitted;
(10) the provider must develop a service plan within 4 weeks of admission to the FBT program;
and (11) the recipient must be between the ages of 5 and 19.




                                                  i
OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for FBT rehabilitation services in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not claim Federal Medicaid reimbursement for FBT rehabilitation services
in accordance with Federal and State requirements. Of the 100 claims in our random sample, 16
claims complied with Federal and State requirements, but 84 claims did not.

Of the 84 noncompliant claims, 58 contained more than 1 deficiency:

   •   For each of 39 claims, the recipient did not receive the required minimum number of
       face-to-face contacts and/or services with an authorized staff person for a monthly or
       semimonthly claim.

   •   For each of 37 claims, documentation did not demonstrate that the rehabilitation contact
       was at least 15 minutes in duration.

   •   For each of 29 claims, the physician’s reauthorization was not based on a review of the
       recipient’s service plan or case record.

   •   For each of 26 claims, the physician’s reauthorization did not include a face-to-face
       contact with the recipient.

   •   For each of 26 claims, the professional parents’ daily logs did not indicate that the
       provider’s authorized staff reviewed them.

   •   For each of nine claims, the recipient was not in residence for the minimum number of
       days required for a monthly claim.

   •   For each of six claims, the physician’s initial authorization did not include a face-to-face
       assessment of the recipient.

   •   For each of five claims, the physician’s reauthorization was not performed timely.

   •   For each of three claims, the recipient resided outside of the FBT home.

   •   For one claim, the provider could not document that FBT rehabilitation services were
       provided.

   •   For one claim, there was no initial physician’s authorization.

   •   For one claim, a qualified mental health staff person did not prepare the admission note.


                                                 ii
   •   For one claim, the service plan was not developed within 4 weeks of the recipient’s
       admission to the program.

   •   For one claim, the recipient exceeded the program’s age requirements.

These deficiencies occurred because: (1) FBT rehabilitation providers did not fully comply with
State regulations, (2) authorizing physicians were not familiar with applicable State regulations
and program requirements, and (3) the State did not adequately monitor the program for
compliance with certain Federal and State requirements.

Using our sample results, we estimate that the State agency improperly claimed $27,467,320 in
Federal Medicaid reimbursement during our January 1, 2005, through December 31, 2009, audit
period.

RECOMMENDATIONS

We recommend that the State agency refund $27,467,320 to the Federal Government.

If the State agency does not close the FBT program by March 31, 2013—a date it has set as a
deadline for closing the program—we further recommend that it:

   •   work with OMH to provide guidance to the provider community on State regulations for
       FBT rehabilitation services,

   •   work with OMH to provide guidance to physicians on State regulations and program
       requirements authorizing FBT rehabilitation services, and

   •   improve its monitoring and oversight of the FBT program to ensure compliance with
       Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our first
recommendation (financial disallowance) and stated that it will evaluate the practicality of
“reissuing guidance to the provider community and physicians” (second and third
recommendations) given that the State is eliminating the FBT program. Regarding our fourth
recommendation, the State agency stated that if any ways to improve its monitoring and
oversight activities are identified in the process of its closing the FBT program, it will implement
such changes.

The State agency disagreed with the legal basis of our findings and stated that they are based
solely on our interpretation of State regulations. The State agency described our interpretation as
overly technical and contrary to the meaning and intent of the regulations.




                                                 iii
In addition, the State agency stated that, for each of the 29 sampled claims for which the
authorizing physician did not review the recipient’s service plan or case record, we ignored
documentation of the authorizing physician’s knowledge of the recipient. Regarding each of the
nine sampled claims for which we determined that the recipient was not in residence for the
minimum number of days for a monthly claim, the State agency stated that we counted weekend
visits to a family home as not being “in residence.”

In followup emails, an official with OMH stated that the program was scheduled to be phased
out and closed by March 31, 2013.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and the OMH official’s emails, we maintain that
our findings and recommendations are valid. We continue to recommend a refund of
$27,467,320. In addition, if the State agency does not close the FBT program by its target date,
we continue to recommend that it work with OMH to provide guidance and improve its
monitoring and oversight of the program.

The plain language of the State’s regulations (repealed after our audit period) provided that a
physician’s authorization “be based on a review of the beneficiary’s service plan or entire case
record.” This requirement addressed two subject areas—medical necessity and coordination of
care—that are not wholly technical. Regarding those claims for which we determined that the
recipient did not meet the minimum number of days for a monthly claim, our calculations of
when a recipient was “in residence” did not include days in which the recipient was hospitalized,
was at summer camp, was not in the program, or did not receive a reimbursable service while at
the family home.




                                               iv
                                                  TABLE OF CONTENTS
                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Federal Requirements for Family-Based Treatment Rehabilitation
                Services .....................................................................................................1
              New York State’s Program for Family-Based Treatment Rehabilitation
                Services .....................................................................................................1
              State Requirements for Family-Based Treatment Rehabilitation
                Services .....................................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................3
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          CLAIM NOT SUPPORTED BY REQUIRED NUMBER OF SERVICES ............5

          SERVICES NOT AT LEAST 15 MINUTES IN DURATION ...............................5

          PHYSICIAN REAUTHORIZED SERVICES WITHOUT REVIEW OF
           SERVICE PLAN OR CASE RECORD ...............................................................6

          PHYSICIAN’S REAUTHORIZATION DID NOT INCLUDE A
           FACE-TO-FACE CONTACT ..............................................................................6

          PROFESSIONAL PARENTS’ DAILY LOGS NOT REVIEWED BY
            PROVIDER’S AUTHORIZED STAFF ..............................................................6

          RECIPIENT NOT IN RESIDENCE FOR REQUIRED MINIMUM
           NUMBER OF DAYS ...........................................................................................7

          PHYSICIAN’S INITIAL AUTHORIZATION DID NOT INCLUDE
           A FACE-TO-FACE ASSESSMENT....................................................................7

          PHYSICIAN’S REAUTHORIZATION NOT PERFORMED TIMELY ...............7

          RECIPIENT DID NOT RESIDE IN HOME ...........................................................8

          SERVICES NOT DOCUMENTED ........................................................................8



                                                                     v
    NO INITIAL PHYSICIAN’S AUTHORIZATION ................................................8

    ADMISSION NOTE NOT PREPARED BY A QUALIFIED STAFF PERSON ...8

    SERVICE PLAN NOT DEVELOPED WITHIN 4 WEEKS ..................................9

    RECIPIENT EXCEEDED PROGRAM’S AGE REQUIREMENTS .....................9

    CAUSES OF UNALLOWABLE CLAIMS ............................................................9
         Family-Based Treatment Rehabilitation Providers Did Not Fully
           Comply With State Regulations................................................................9
         Authorizing Physicians Not Familiar With State Regulations and
           Program Requirements..............................................................................9
         Inadequate Monitoring by State Agencies .................................................10

    ESTIMATE OF THE UNALLOWABLE AMOUNT...........................................10

    RECOMMENDATIONS .......................................................................................11

    STATE AGENCY COMMENTS AND
     OFFICE OF INSPECTOR GENERAL RESPONSE .........................................11
         Application of State Regulations ...............................................................11
         Documentation of Authorizing Physicians’ Knowledge of Recipients .....12
         Claims Not Supported by Required Number of Services ..........................13

APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: STATE AGENCY COMMENTS




                                                       vi
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

In New York State (the State), the Department of Health (State agency) administers Medicaid.
The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process and pay Medicaid claims.

Federal Requirements for Family-Based Treatment Rehabilitation Services

Section 1905(a)(13) of the Act and 42 CFR § 440.130(d) authorize optional rehabilitative
services, including any medical or remedial services (provided in a facility, a home, or other
setting) recommended by a physician or other licensed practitioner of the healing arts within the
scope of his or her practice under State law, for the maximum reduction of physical or mental
disability and restoration of an individual to the best possible functional level.

Principles and standards for determining allowable costs incurred by State and local governments
under Federal awards are established by 2 CFR part 225 (Office of Management and Budget
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments). Pursuant to 2
CFR § App. A,C.1.c, to be allowable, costs must be authorized or not prohibited by State or local
laws and regulations.

New York State’s Program for Family-Based Treatment Rehabilitation Services

The State elected to include, under a program administered by its Office of Mental Health
(OMH), Medicaid coverage of family-based treatment (FBT) rehabilitation services for
recipients between the ages of 5 and 19. 1 The program provides care and treatment to children
and youths with serious emotional disturbances who reside in State-operated housing programs
(known as FBT homes). The primary goal of the program is to return children and youths to a
permanent family-like setting and to prepare them for successful independent living. A
physician or other licensed practitioner of the healing arts determines program eligibility.
Physicians’ authorizations are valid for up to 6 months for recipients in FBT homes. FBT
providers maintain records, develop admission notes, develop service plans, provide services,

1
 Although OMH administers the FBT program, FBT rehabilitation providers submit claims for payment through the
MMIS. The State agency then seeks Federal reimbursement for these claims through the Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program.


                                                     1
monitor recipient progress, review daily logs maintained by “professional parents,” 2 and
periodically review the status of recipients. 3 FBT rehabilitation services include training and
assistance with daily living skills; medication management; and socialization, counseling, family
support, and health services. Medicaid reimbursement is based on monthly or semimonthly
rates. 4

State Requirements for Family-Based Treatment Rehabilitation Services

Title 14, parts 593 and 594 of the New York Compilation of Codes, Rules, & Regulations
(NYCRR) establishes standards for Medicaid reimbursement of FBT rehabilitation services.
Parts 593 and 594 also establish standards for service planning and review that FBT
rehabilitation providers must follow. 5 These regulations state, in part, that: (1) providers must
have at least 11 qualifying face-to-face contacts with the recipient for a monthly claim or 6
qualifying face-to-face contacts for a semimonthly claim; 6 (2) each contact must be at least 15
minutes in duration; (3) an initial authorization for services must include a physician’s face-to-
face assessment of the recipient; (4) a physician must renew authorizations every 6 months and
have a face-to-face contact with the recipient; (5) reauthorization for services must be based on a
review of a summary of the recipient’s 3-month service plan review or a review of the complete
case record of the recipient; (6) authorized staff must record monthly progress notes based on
daily logs that trained professional parents keep, and the service provider must review them
weekly; (7) an eligible recipient must be in residence for at least 21 days in a calendar month for
a monthly claim; (8) a contact that occurs while a recipient is a hospital inpatient or while
residing in any other residential facility is not a reimbursable contact; (9) a qualified mental
health staff person (QMHS) must prepare a note when the recipient is admitted; (10) the provider
must develop a service plan within 4 weeks of admission to the FBT program; and (11) the
recipient must be between the ages of 5 and 19.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for FBT rehabilitation services in accordance with Federal and State
requirements.

2
 Professional parents are trained to maintain and service children and youths in their homes and to work intensively
with the children’s and youths’ families.
3
    Authorized staff include family specialists who perform these duties, as well as “professional parents.”
4
    For our audit period, the average monthly payment to FBT rehabilitation providers was $4,321 per recipient.
5
  In February 2010, which is after our audit period, OMH revised some of its requirements for Medicaid
reimbursement of FBT rehabilitation services. Among its changes to the program, the State repealed 14 NYCRR
§ 593.6(g) and revised 14 NYCRR § 593.6(b) to allow reauthorizations for services to be signed by a physician,
physician assistant, or nurse practitioner in psychiatry.
6
  Contacts with authorized staff are defined as contacts involving the performance of at least one service indicated in
the recipient’s service plan.


                                                            2
Scope

Our review covered 16,574 FBT rehabilitation services claims, totaling $70,490,871
($35,249,719 Federal share), submitted by 34 FBT rehabilitation providers in the State for the
period January 1, 2005, through December 31, 2009.

During our audit, we did not review the overall internal control structure of the State agency,
OMH, or the Medicaid program. Rather, we reviewed only the internal controls directly related
to our objective.

We conducted fieldwork at OMH’s offices in Albany, New York; offices of the MMIS fiscal
agent in Rensselaer, New York; offices of 18 FBT rehabilitation providers throughout the State;
and physicians’ offices throughout the State.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State regulations and requirements;

    •   held discussions with OMH officials to gain an understanding of the program for FBT
        rehabilitation services;

    •   ran computer programming applications at the MMIS fiscal agent that identified a
        sampling frame of 16,574 claims for FBT rehabilitation services, totaling $70,490,871
        ($35,249,719 Federal share), submitted by 34 FBT rehabilitation providers;

    •   selected a simple random sample of 100 claims (98 monthly claims and 2 semimonthly
        claims) from the sampling frame of 16,574 claims, 7 and for each of these 100 claims, we:

            o reviewed the corresponding FBT rehabilitation provider’s supporting
              documentation;

            o reviewed the professional credentials of the FBT rehabilitation provider’s
              authorized staff person(s) who prepared the admission note and reviewed and
              signed the recipient’s applicable service plan;

            o interviewed officials at the corresponding FBT rehabilitation provider to gain an
              understanding of the provider’s policies and procedures for obtaining
              authorizations for FBT rehabilitation services; and



7
 Forty-eight authorizing physicians were associated with the 100 sampled claims. (Some physicians authorized two
or more claims). For various reasons (e.g., retirement, relocation), we were able to interview only 38 of the 48
physicians (representing 78 claims).


                                                       3
               o interviewed the physician (if available) who authorized FBT rehabilitation
                 services to determine the physician’s knowledge of the program requirements;
                 and

      •    estimated the unallowable Federal Medicaid reimbursement paid in the population of
           16,574 claims.

Appendix A contains the details of our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

The State agency did not claim Federal Medicaid reimbursement for FBT rehabilitation services
in accordance with Federal and State requirements. Of the 100 claims in our random sample, 16
claims complied with Federal and State requirements, but 84 claims did not. Of the 84 claims,
58 contained more than 1 deficiency. The table below summarizes the deficiencies noted and the
number of claims that contained each type of deficiency.

                           Table: Summary of Deficiencies in Sampled Claims
                                                                                    Number of
                                      Type of Deficiency                            Unallowable
                                                                                     Claims 8
Claim not supported by required number of services                                     39
Services not at least 15 minutes in duration                                           37
Physician reauthorized services without review of service plan or case record          29
Physician’s reauthorization did not include a face-to-face contact                     26
Professional parents’ daily logs not reviewed by provider’s authorized staff           26
Recipient not in residence for required minimum number of days                          9
Physician’s initial authorization did not include a face-to-face assessment             6
Physician’s reauthorization not performed timely                                        5
Recipient did not reside in home                                                        3
Services not documented                                                                 1
No initial physician’s authorization                                                    1
Admission note not prepared by a qualified staff person                                 1
Service plan not developed within 4 weeks                                               1
Recipient exceeded program’s age requirements                                           1


8
    The total exceeds 84 because 58 claims contained more than 1 deficiency.


                                                          4
These deficiencies occurred because: (1) FBT rehabilitation providers did not fully comply with
State regulations, (2) authorizing physicians were not familiar with applicable State regulations
and program requirements, and (3) the State did not adequately monitor the program for
compliance with certain Federal and State requirements.

Using our sample results, we estimate that the State agency improperly claimed $27,467,320 in
Federal Medicaid reimbursement during our January 1, 2005, through December 31, 2009, audit
period.

CLAIM NOT SUPPORTED BY REQUIRED NUMBER OF SERVICES

Pursuant to 14 NYCRR § 593.7(b), Medicaid reimbursement for FBT rehabilitation services is
based on monthly or semimonthly rates. For FBT providers to bill for a monthly claim, a
recipient must receive at least 11 face-to face contacts with an authorized staff person, at least 3
of which must be provided by authorized staff other than the professional parents, and at least 4
different rehabilitation services must be provided. For FBT providers to bill for a semimonthly
claim, a recipient must receive at least six face-to-face contacts with an authorized staff person,
at least two of which must be provided by authorized staff other than the professional parents,
and at least two different rehabilitation services must be provided.

For each of 39 of the 100 claims in our sample, the recipient did not receive the minimum
number of contacts and/or services. Of these, 22 contained more than 1 error. Specifically:

   •   For each of 33 monthly claims, the recipient did not receive at least 11 face-to-face
       contacts.

   •   For each of 16 monthly claims, the recipient did not receive at least 3 contacts with
       authorized staff other than the recipient’s professional parents.

   •   For each of 16 monthly claims, the recipient did not receive at least 4 different
       rehabilitation services.

   •   For one semimonthly claim, the recipient did not receive at least six face-to-face contacts
       with authorized staff and two contacts with authorized staff other than the recipient’s
       professional parents.

SERVICES NOT AT LEAST 15 MINUTES IN DURATION

Pursuant to 14 NYCRR § 593.7(b)(3), each face-to-face contact must be at least 15 minutes in
duration.

For each of 37 of the 100 claims in our sample, the FBT rehabilitation provider’s documentation
did not demonstrate that the rehabilitation contact was at least 15 minutes in duration.




                                                  5
PHYSICIAN REAUTHORIZED SERVICES WITHOUT REVIEW OF SERVICE PLAN
OR CASE RECORD

Pursuant to 14 NYCRR § 593.6(b)(1), the physician’s authorization must be renewed every
6 months for residents in FBT homes. A summary of the service plan review prepared
immediately preceding the expiration date of the physician’s authorization, signed by a QMHS,
must be submitted to the physician before the physician reauthorizes rehabilitation services. The
physician may reauthorize the services on the basis of the summary of the 3-month service plan
review or, if necessary, may request the complete case record of the individual (14 NYCRR §
593.6(g)). The service plan review is developed by qualified staff of the program and identifies
the recipient’s service goals and objectives, the services to be provided, proposed time periods,
and efforts to coordinate services with other providers.

For each of 29 of the 100 claims in our sample, the physician reauthorized FBT rehabilitation
services without reviewing the summary of the 3-month service plan review or the complete case
record. For 21 of these claims, the FBT rehabilitation providers stated that they did not submit
any documentation (e.g., service plan review, assessment, summary of service plan review) to
the physician who reauthorized FBT rehabilitation services. 9 For seven other claims, providers
made this documentation available; however, physicians stated in interviews that they did not
review the documentation before reauthorizing FBT rehabilitation services. For the remaining
claim, provider officials said they were uncertain if the documentation was made available to the
physician; however, the physician stated that he did not review the documentation before
reauthorizing FBT rehabilitation services.

PHYSICIAN’S REAUTHORIZATION DID NOT INCLUDE A FACE-TO-FACE
CONTACT

Pursuant to 14 NYCRR § 593.6(b)(1), the physician’s reauthorization must be renewed every
6 months for children and youths and must include a face-to-face contact between the physician
and the recipient.

For each of 26 of the 100 claims in our sample, the physician’s reauthorization did not include a
face-to-face contact between the recipient and the physician. Specifically, we could not find any
documentation in the providers’ files to indicate that the physician met face-to-face with the
recipient prior to renewing the reauthorization.

PROFESSIONAL PARENTS’ DAILY LOGS NOT REVIEWED BY PROVIDER’S
AUTHORIZED STAFF

Pursuant to 14 NYCRR § 593.6(e), an authorized staff member must record, at least monthly,
progress notes that specify the types of services provided; significant events that occurred; and, if
applicable, recommendations for changes to the recipient’s service plan goals and objectives.
For FBT program services, providers must base their progress notes on the professional parent’s
daily logs that authorized staff review weekly (14 NYCRR § 594.10(c)).

9
 In interviews, all of the physicians associated with the 21 claims (except 3 whom we were unable to interview)
confirmed this information.


                                                         6
For each of 26 of the 100 claims in our sample, the professional parents’ daily logs did not
indicate that authorized staff (e.g., a family specialist) 10 had reviewed them.

RECIPIENT NOT IN RESIDENCE FOR REQUIRED MINIMUM NUMBER OF DAYS

Pursuant to 14 NYCRR § 593.7(b)(1), a monthly rate is paid for services provided to eligible
recipients residing in FBT homes for at least 21 days in a calendar month.

For each of 9 monthly claims in our sample, the FBT provider did not document that the
recipient resided in the FBT home for 21 days in a calendar month. 11 The nine recipients resided
in FBT homes from 0 to 17 days during the sampled month.

PHYSICIAN’S INITIAL AUTHORIZATION DID NOT INCLUDE A FACE-TO-FACE
ASSESSMENT

Pursuant to 14 NYCRR § 593.6(a)(1), the physician’s initial authorization must be based on
appropriate clinical information and assessment of the individual and must include a face-to-face
assessment of the recipient.

For each of 6 of the 100 claims in our sample, the physician’s initial authorization did not
include a face-to-face assessment of the recipient. We interviewed five of the six physicians who
signed the initial authorizations 12 and reviewed all six recipients’ records and found no evidence
of a face-to-face assessment between the physician and recipient applicable to the date of the
initial authorization.

PHYSICIAN’S REAUTHORIZATION NOT PERFORMED TIMELY

Pursuant to 14 NYCRR § 593.6(b)(1), the physician’s authorization must be renewed every
6 months for residents in FBT homes.

For each of 5 of the 100 claims in our sample, the physician signed a reauthorization for FBT
rehabilitation services before or after the 6-month reauthorization period applicable to the date of
our sampled claim. Specifically, for three claims, physicians signed reauthorizations 14 to 18
months before the date of our sampled claim; as of the end of our fieldwork, no reauthorizations




10
  For the remaining 74 claims, the family specialist initialed or signed the daily logs, either on each page or on the
last page, to certify that he/she reviewed the logs.
11
  FBT rehabilitation providers generally documented the number of days a recipient was in residence using
medication logs, daily logs, or progress notes. We allowed claims for which the provider recorded that the recipient
occupied a bed in an OMH-approved FBT home for 21 days in a calendar month.
12
     We could not interview the remaining physician because he was hospitalized during our fieldwork.



                                                           7
had been signed after the date of those three sampled claims. For the remaining two claims,
physicians signed reauthorizations 1 to 4 months after the date of our sampled claim. 13

RECIPIENT DID NOT RESIDE IN HOME

Pursuant to 14 NYCRR § 593.7(b)(5), a contact that occurs while a recipient is a hospital
inpatient or is residing in any other residential facility is not a reimbursable contact.

For each of 3 of the 100 claims in our sample, the provider received Medicaid reimbursement for
FBT rehabilitation services during a period for which the recipient resided outside of the FBT
home. For two claims, the recipients were hospital inpatients for most of the service month. For
the remaining claim, the recipient was discharged from the program 4 days into the service
month to a group home dedicated to young adults.

SERVICES NOT DOCUMENTED

Pursuant to 42 CFR § 433.32, services claimed for Federal Medicaid reimbursement must be
documented. Pursuant to 18 NYCRR § 504.3(e), by enrolling in the State’s Medicaid program, a
provider agrees to submit claims for payment only for services actually provided to Medicaid
recipients. Pursuant to 14 NYCRR § 593.6, in order to receive reimbursement for rehabilitation
services to an individual, documentation must be retained as a part of the individual’s case
record.

For 1 of the 100 claims in our sample, the provider did not provide any documentation to support
the claim because the recipient’s case record was inadvertently shredded when the recipient
moved to another county.

NO INITIAL PHYSICIAN’S AUTHORIZATION

Pursuant to 14 NYCRR § 593.6(a), to receive reimbursement for providing rehabilitation
services, providers must ensure that a physician authorizes in writing a resident’s admission to
the program before that admission.

For 1 of the 100 claims in our sample, the provider received Medicaid reimbursement for FBT
rehabilitation services provided to a recipient who was not authorized by a physician to receive
FBT rehabilitation services prior to or upon the recipient’s admission to the FBT program. For
this claim, the provider could not produce an initial authorization for the recipient.

ADMISSION NOTE NOT PREPARED BY A QUALIFIED STAFF PERSON

Pursuant to 14 NYCRR §§ 593.6(c) and 594.10(a), a QMHS must prepare an admission note at
the time of admission that specifies, at a minimum, a description of the needs of the recipient and
a brief description of the rehabilitation services necessary to meet those needs during the initial
period after admission.

13
  The previous reauthorizations for these two claims were signed 12 to 17 months before the dates of our sampled
claims.


                                                        8
For 1 of the 100 claims in our sample, the admission note was prepared by a staff person who
possessed an associate’s degree, a degree that does not meet the QMHS criteria for this type of
program.

SERVICE PLAN NOT DEVELOPED WITHIN 4 WEEKS

Pursuant to 14 NYCRR §§ 593.6(c) and 594.10(a), rehabilitation services provided within the
program must be provided in accordance with a service plan developed within 4 weeks of
admission to the program.

For 1 of the 100 claims in our sample, the initial service plan was not developed within 4 weeks
of the recipient’s admission to the program. The plan was developed over 5 weeks after the
recipient was admitted.

RECIPIENT EXCEEDED PROGRAM’S AGE REQUIREMENTS

Pursuant to 14 NYCRR § 594.8(b)(1), FBT program recipients must be between the ages of 5
and 19. Recipients may remain in the program for up to 1 year following their 18th birthdays, if
clinically appropriate (14 NYCRR § 594.8(i)).

For 1 of the 100 claims in our sample, the recipient exceeded the program’s age requirements by
more than 9 months.

CAUSES OF UNALLOWABLE CLAIMS

Family-Based Treatment Rehabilitation Providers Did Not Fully Comply With State
Regulations

None of the 18 FBT rehabilitation providers included in our sample fully complied with State
regulations. Specifically, 13 of the providers associated with 54 sampled claims did not comply
with State regulations on the minimum number and length of rehabilitation services required for
Medicaid reimbursement. In addition, 11 of the 18 providers associated with 32 sampled claims
did not ensure that physicians performed face-to-face assessments of recipients before
authorizing services. Further, authorized staff (e.g., a family specialist) at 10 providers
associated with 26 sampled claims did not review the professional parents’ daily logs
documenting services provided to recipients. Finally, 6 providers associated with 21 sampled
claims did not provide any documentation to the recipient’s physician for use in determining the
reauthorization of rehabilitation services.

Authorizing Physicians Not Familiar With State Regulations and Program Requirements

Forms used by physicians to authorize rehabilitation services for recipients in the FBT program
vary slightly throughout the State. However, each form requires the physician to declare that the
authorization or reauthorization for FBT services is based on a review of the recipient’s
assessments and a determination that the recipient would benefit from services defined in



                                                9
14 NYCRR part 593. However, 33 of the 38 physicians interviewed (87 percent) stated that they
were not familiar with these regulations. Thirty-one physicians stated that they did not practice
in an FBT rehabilitation program setting and were familiar with the recipient for whom they
authorized rehabilitation services only through a different program, such as an outpatient mental
health clinic, primary care physician, or private psychiatric practice.

For each of the 29 claims that we determined were in error, the physician’s reauthorization for
services was not based on a review of the summary of a recipient’s 3-month service plan review
(or the actual service plan review) or a review of the complete case record, as required. The
service plan identifies the recipient’s service goals and objectives, the services to be provided,
proposed time periods, and efforts to coordinate services with other providers. We interviewed
17 physicians who signed 25 of the 29 authorizations, to determine the basis for their signatures
on the authorization. 14 For 13 of the 25 claims, the physician did not see the recipient prior to
authorizing FBT rehabilitation services. The 10 physicians associated with the remaining 12
claims stated that they authorized FBT rehabilitation services based on their familiarity with the
recipient from other programs the recipient attended, not their own knowledge of the FBT
program.

Finally, of the 38 total physicians interviewed, 22 did not assess the recipients face-to-face or
have contact with them before signing the authorization.

Inadequate Monitoring by State Agencies

The State agency did not provide adequate oversight to ensure that OMH effectively monitored
FBT providers throughout the State for compliance with certain Federal and State requirements.
Although OMH conducts periodic monitoring visits at program providers to review case records
for compliance with applicable State regulations, OMH’s monitoring program did not ensure that
providers complied with Federal and State requirements. Of the 18 providers in our sample,
OMH cited 16 in its monitoring outcome reports for instances of noncompliance similar to those
discussed above. Despite these monitoring outcome reports and recommended corrective
actions, the providers continued to submit improper claims for Federal Medicaid reimbursement.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 claims for FBT rehabilitation services that we sampled, 84 were not claimed in
accordance with Federal and State requirements. Using our sample results, we estimate that the
State improperly claimed $27,467,320 in Federal Medicaid reimbursement during our January 1,
2005, through December 31, 2009, audit period. Appendix B contains our sample results and
estimates.




14
  We did not interview the physicians who authorized services for recipients in 4 of the 29 unallowable claims
because either the physicians were retired or we could not locate them. However, provider officials stated that they
did not provide the summaries of the service plan reviews or the complete case records to the physicians for the four
claims.


                                                         10
RECOMMENDATIONS

We recommend that the State agency refund $27,467,320 to the Federal Government.

If the State agency does not close the FBT program by March 31, 2013—a date it has set as a
deadline for closing the program—we further recommend that it:

   •   work with OMH to provide guidance to the provider community on State regulations for
       FBT rehabilitation services,

   •   work with OMH to provide guidance to physicians on State regulations and program
       requirements authorizing FBT rehabilitation services, and

   •   improve its monitoring and oversight of the FBT program to ensure compliance with
       Federal and State requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our first
recommendation (financial disallowance). As to our other recommendations, the State agency
noted that because OMH is closing the FBT program, it will evaluate the practicality of
“reissuing guidance to the provider community and physicians” (second and third
recommendations) and will implement improvements in its monitoring and oversight (fourth
recommendation) that it identifies before the program closes. The State agency’s comments
appear in their entirety as Appendix C.

In followup emails, an official with OMH stated that the program was scheduled to be phased
out and closed by March 31, 2013.

After reviewing the State agency’s comments and the OMH official’s emails, we maintain that
our findings and recommendations are valid. We continue to recommend a refund of
$27,467,320. In addition, if the State agency does not close the FBT program by its target date,
we continue to recommend that it work with OMH to provide guidance and improve its
monitoring and oversight of the program.

Application of State Regulations

State Agency Comments

The State agency stated that we misapplied State regulations and ignored “alternative
enforcement actions” provided in State regulations. It stated that even if our sampled services
violated State regulations, other State regulations (14 NYCRR § 593.8) exist that “would have
resulted in the State agency taking alternative enforcement actions” provided for in those
regulations. Among OMH’s means of monitoring and enforcing provider compliance with
program standards are: (1) requiring providers to submit a plan of corrective action addressing


                                               11
program deficiencies; (2) imposing fines; (3) limiting, suspending, or revoking a provider’s
license; and (4) increasing the frequency of program inspections.

The State agency stated that we misapplied 14 NYCRR § 593.6 and that our interpretation of it
was “overly technical.”

Office of Inspector General Response

We maintain that the plain language of the State’s regulations at 14 NYCRR § 593.6 provides
clear requirements for Medicaid providers to be paid. The section begins, “In order to receive
reimbursement for the provision of … services to an individual …” (emphasis added). Pursuant
to 2 CFR part 225, Cost Principles for State, Local, and Indian Tribal Governments (Office of
Management and Budget Circular A-87), to be allowable under Federal awards, costs must “[b]e
authorized or not prohibited under State or local laws or regulations.” Therefore, we may
conduct an audit to determine whether Federal payments have been made in violation of State
laws and regulations and recommend disallowances of Federal funding on the findings of such
an audit.

Documentation of Authorizing Physicians’ Knowledge of Recipients

State Agency Comments

The State agency stated that, for each of the sampled claims for which the authorizing physician
did not review the recipient’s service plan or case record, we “ignored documentation of the
authorizing physicians’ knowledge of the patients for whom services were being authorized.”
The State agency cited eight sampled claims 15 for which it asserted that physicians’ responses to
a questionnaire used during our review indicated that the authorizing physician was “familiar
with the needs of the individuals.”

 Office of Inspector General Response

We maintain that the plain language of the State’s regulations at 14 NYCRR § 593.6(g) (repealed
after our audit period) provided that a physician’s authorization be based on a review of the
beneficiary’s service plan or entire case record. This requirement addressed two subject areas—
medical necessity and coordination of care—that are not wholly technical. For each of the
sampled claims cited by the State agency, the physician reauthorized FBT rehabilitation services
without reviewing a summary of the 3-month service plan review or the complete case record.
Specifically:

       •   For each of six sampled claims (numbers 14, 20, 52, 53, 69, and 70), the authorizing
           physician saw the recipient only for medication management—not FBT services. For
           one of these claims (number 53), the physician stated that she was unaware that the
           recipient was receiving FBT services and did not clearly understand what services she
           was authorizing.

15
     The eight sampled claims that the State agency cited are: Numbers 14, 20, 52, 53, 69, 70, 76, and 94.


                                                           12
   •   For one sampled claim (number 76), the authorizing physician was not provided the
       applicable service plan or case record prior to reauthorizing FBT services.

   •   For one sampled claim (number 94), the authorizing physician saw the recipient in a
       clinical setting—not for FBT services. In addition, the applicable service plan or case
       record was not provided to the physician prior to her signing the reauthorization.

Claims Not Supported by Required Number of Services

State Agency Comments

Regarding our finding that for nine sampled claims the recipient was not in residence for the
minimum number of days for a monthly claim, the State agency stated that reimbursable contacts
can occur at the family home and indicated that we did not count days for which a recipient was
in the family home as being in residence.

Office of Inspector General Response

Our calculations of when a recipient was “in residence” did not include days in which the
recipient was hospitalized, was at summer camp, was not in the program, or did not receive a
reimbursable service while at the family home. For 9 monthly claims in our sample, the FBT
provider did not document that the recipient resided in the FBT home for the required 21 days in
a calendar month. Specifically:

   •   For two claims, the recipient was hospitalized for at least 21 days during the month.

   •   For one claim, the recipient was at summer camp for 19 days during the month.

   •   For one claim, the recipient was in the FBT program for only 4 days before moving to a
       different program.

   •   For one claim, the recipient did not enter the FBT program until the 8th day of the month.
       The recipient then spent 9 of the remaining 23 days at the family home.

   •   For one claim, the provider could document that the recipient was in the FBT program for
       only a total of 17 days during the month.

   •   For three claims, the recipient spent at least 14 days during the month at his/her family
       home without a reimbursable FBT service being provided by the parent—days that
       should not count toward the minimum number of days needed to bill for a monthly claim.
       As the State agency stated in its comments, “In residence means currently admitted to
       and residing in a family based treatment program ….”




                                               13
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was family-based treatment (FBT) rehabilitation claims submitted by 34
providers in the State during our January 1, 2005, through December 31, 2009, audit period that
the New York State Department of Health claimed for Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame was a computer file containing 16,574 detailed paid claims for FBT
rehabilitation services submitted by 34 providers in the State during our audit period. The total
Medicaid reimbursement for the 16,574 claims was $70,490,871 ($35,249,719 Federal share).
The Medicaid claims were extracted from the claims’ files maintained at the Medicaid
Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the 16,574 detailed claims. After generating 100 random numbers,
we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at a 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                          Sample Details and Results
                                                                        Value of
             Value of                                                  Unallowable
                                        Value of
              Frame                                                      Claims
Claims in                  Sample        Sample        Unallowable
             (Federal                                                   (Federal
 Frame                      Size     (Federal Share)     Claims
              Share)                                                     Share)

 16,574     $35,249,719      100        $212,781            84          $179,732



                         Estimated Unallowable Costs
            (Limits Calculated for a 90-Percent Confidence Interval)

                   Point Estimate                  $29,788,810

                   Lower Limit                     $27,467,320

                   Upper Limit                     $32,110,299
                                                                                                                 Page 1 of6


                   APPENDIX C: STATE AGENCY COMMENTS 





========::;:jf ~~~~a~n~~j!< L========
 Nirav R Shah, M.D., M P. H.
 Ccmm,SSiCiner 	
                                       HEALTH 	                                                     Sue Kelly
                                                                              Exocu\lve Depllty Commi!).Sionet



                                                        August 29,2012




James f>. Edcrt
Regional Inspector General for Audit Services
Department of Health and Human Services
Region ll
Jacob Javitz Federal lluilding
26 Federal Pla7..a
New York, New York I0278

                                                        Ref. No : A-02- I 0-0 I024
Dear Mr. Edert:

        Enclosed are the New York State Department of Health's comments on the U.S.
Department of Health and H uman Services, Office of Inspector General's draft audit report A-
02-l 0-01024 on "New York Improperly Claimed Medicaid Rei mbursement for Family-Rased
Treatment Rehabilitation Services ..,

        Thank you for the opportunHy to comment.




                                '~~

                                 ~ ~·~~
                                    ~-                  Robert W..•octce
                                                                   . , :\Sq. 

                                                        Deputy Director for Administration 


enclosure
cc: 	 Courtney Burke
       Kristin Riley
       Jason Hc.lgerson
       James C. Cox
       Diane Christensen
       Stephen Abbott
       Stephen La Casse
       James Russo
       Irene Myron
       John Brooks
       Ronald Farrell
       Michelle Comrcras

                                        HEALTH.NY.GOV
                                        ((lc<:book,CQ'l"JNYSOOH
                                       twmcrcomJHealtflNY(iov
                                                                                                       Page 2 of6




                  New York State Department of Health 

                  Comments on the U.S. Department of 

                       Health and Human Services 

                       Office of 1nspector General 

                  Draft Audit Report A-02-10-01024 on 

         "New York Improperly Claimed Medicaid Reimbursement 

           for Family-Based Treatment Rehabilitation Services" 


·rhc followi ng arc the New York State Department of Health 's (Department ) comments in response
to the Department of Health and Human Services Office of Inspector General (OIG) Draft Audit
Report A-02-10-01024 on " New York Improperly Claimed Med icaid Re imbu r.>ement for Pami ly­
Based Treatment Rehabilitation Services."

Overview ofthe Family Based Treatment Program:

The New York State Fam ily-Based Treatment (FBT) Program is a component of the system o f care
for chil dren and youth with serious e motional disturbances (SED). PBT targets chi ldren who meet
SED criteria, can function in a lruni ly setting, and are at risk for restrictive settings. It provides,
through a careful matching process, a placement in a family home for children who are able to live
in the community under the supervision, and with the support, of surrogate parents. These surrogate
parents receive special training in behavior management and other related aspects of caring for youth
with SED. Additiona l supports , includ ing cl inical services, arc arranged through communi ty mental
health programs and other community agencies.

Recommendation #1:

The Depa111nent shou ld refimd $27,467,320 w the Federal Govcmment.

Res ponse #1:

This recommenqation resulted from OlG"s revi ew of a sample of 100 c laims o ut of 16,574 claims
submitted by 34 provid~;:rs during the period .January I. 2005 thro ugh December 3 I, 2009. Of the
100 claims sa mpled, OIG determined 84 c laims were non-reimbursable. The Depat1ment and the
New Yo rk State Oftice of Mental Health (OMH) st.rongly disagree with the recommendation for the
State to retlmd $27 .467,320 to the Federal Govcrruncnt on the basis that OIG's underlying audit
methodology is flawed .

O IG is recommending this punitive disallowance based upon findings of alleged technical violations
of New Yo rk State program regulations . This recommendation is be ing made despi te the factlhere
is no finding that the servic...:s provided were not medically necessary. were not in fact provided or
were provided to ind ividuals who were not Medicaid-e lig ible. Prcl.iminary analyses of the OIG audit
workpapers reveals the OlG auditors did not rake into consideration all other available
documentation enabling a reasonable person to conclude an appropriate service was del ivered to a
Medica id-eligible person.
                                                                                                        Page 3 of6




The auditors ignored the approp riateness of remedies other than disall owance for alleged regulatory
violalions

The type of violations alleged by the OIG, even had they been violative of the regulatory provisions
cited, would not have rendered the services non-reimbursable under the same reg ul ations being
applied by the OJG . Rather, they would have resulted in alternative enforcement actions by the
State, which are specifically prov ided for in the regulations in question .

.OMH maintai ns various means of monitoring and enforcing provider com piiance with program
standards. Among these are rc.quiring providers to submit a plan of corrective action (POCA)
addressing program deficiencies. increasing the frequency of program inspections, the imposition of
fines and the limitation, suspension or revocation of a provider's license. Section 593.8 of the
regulation in question, ·'Enforcement Standards and Procedures," makes this explicit. This section
specifically provides that where OMH determines a provider of service is not exercising due
diligence in complying with the State regulatory requ irements pertaining to this program, OMH will
give notice of the deficiency to the provider, and may also either request the provider to prepare a
POCA, or OMHmay provide technical assistance. If the provider fails to prepare an acceptable
POCA within a reasonable time, or if it refuses to pe1111it OMH to provide technical assistance or
effectively implement a plan of correction, then it will be detcnnine.d to be in violation ofthe
program regu lations. Such a determination, as well as a failure to compl y with the tern's of the
provider's operating certificate or with the provisions of any applicable statute, rule or regulation,
subjects the provider to a possible revocation. suspension or limita tion of the provider' s operating
certificate, or the imposition of a fine.

Thus, the OTG has issued a recommended disallowance based entirely upon its imcrprctation and
application of State regulations. In so doing, however, it has ignored specific and relevant
provisions of the regulation it is purporting to enforce. As detailed below, the 0!0 then compounds
this error by misapplying these regulations, resulting in a determination of violations based upon
behaviors the State would have found to be compliant.

The OJG applied an inappropriate and overly technical interpretation of New York State's program
re2ulations that is contrarv to the rneani mr and intent of these regu lations

Tl;le draft OIG audit report relies on. an overly technical interpretation of State regulations. 010
recommends a disallowance or over $27 million based upon a review of a sample of I00 claims from
a universe of 16.574 claims. Of the 100 c laims sampled , OIG found 84 claims so flawed as to
render such claim s non-reimbursable. Of those 84 claims. 29 were found to violate the State' s
requirement for se rvice reauthorization, which states that at the service plan review immediately
preceding the exp iration date of the physician's authorizat ion. a summary of the review mus t bt:
submitted to the physician , and the physician ma y authorize the services based upon the summary of
the three month review or. ir necessary. may request the complete case record of the individual. For
ihese 29 claims. 010 states the provider did not suhmir the rev iew summary to the phys ician.

lh<.· services in question arc provided to children wilh SED who a re residi ng wilh surrogate fam ilies.
OMH, in designing program standards, intended to ensure thai iherc was physician involvement in
the determinati on of need for services. and in periodic rcauthori 7..atio n ~.




                                                   2
                                                                                                               Page 4 of6




The intent of the regulatory provi sion that the program su pply the physician with a St1mmm·y of the
service pla n review, a nd the language stat ing the phys ician may autho rize addit ional services based
upon that review. was lO ensure physicians not otherwise rami liar wi th the individ ual wou ld be
prov ided with sufficient i nfonnation to make an informed cl inical judgment. FurthcmJOrC, the
regulation was no t intended to requ ire t.hc physician to base his or her recommendation o n that
swnmary, rat her than his or her ovv11 informed clinical judgment. In tact, an interpremtion that
would require a phys ic ian to base a recommendation for continued services ori a summa ry prepared
by olhcrs. rather than his or her in f(>rmcd c.linic:al judgment and ac tual knowledge ofthe patient.
would be clinical ly inappropria te.

The OIG auditors ignored documentation of the. a uthorizing plwsicians· knmvledge of the patients
tor whom services were being authorizect

De.s pi te having ample documentati on that the physicians prov iding the serv ice rea uthorization in
question were faini liar with the needs of the ind ividuals as a result ofihc physicians· own personal
knowledge, the OIG repeated ly d.isallowed services based upon its reading of a reg1ilatio n intended
to ensure that s uch reautho rizations be provided by informed physicians. because those physicia ns
did not base the reauthorization on a written s um mary prepared by o thers. Speciiical ly_ in the FBT
programs. the physician was very ram iliar with the child's needs as he or she was one of the primary
treating practitione rs and usually saw the chi ld on a monthl y basis for med ication management.

In a questio nnaire used by the O!G auditors, the physicia ns were asked wheth~r they reauthorized
serv ices based upon a rev iew of the summary of the three mo nth service plan review, the actual
serv ice plan review o r the comp lete c.a~c record, a nd to ex plain . In case after case. when the ' 'no''
box was marh:d. the explanation given was th e phys ician was personally familiar with the patient
and had been seeing the child alo ng with his or he r caretaker a t least on a monthly basis.

Examp les fi·om Otc; q ucs tionnair.::s supporting physician l'ami liarity and knowledge of a c hild 's
needs inc iLtde the ftJI Iowing: :

Sam ple 14:

The doetor to ld. the investigators that the reauthorizatio n is based on knowledge of the pa tient and
what is being re ported to the physician. There is a group mee ti ng with the fami ly special is t whe re
th..: physicia n receives in format ion about the patient.

Sample 20:

The doctor had bee n seeing the c hi ld every one or two months for at least two years based on need.
The doctor stated that when he reauthorized services he inte rviewed the c hild a nd if he felt the c hi ld
was e motionl'tlly dis turbed he;: would base the rcautl1orizati on o n that fact.

Sample 52:

T he doctor saw· the child tor approximately six months primarily for medicati o n management The
doctor stat~d there ar~. tt·am meetings in wh ich the therapist discusses how the c hi ld is doing at home
and schooL The doctor also stated he received co nstan t fcc (lbnck regardi ng the child's progress .



                                                      3
                                                                                                               Page 5 of6




Sample 53:

T he doctor stated he had treated the chi ld for a pprox imately four yea rs primarily for medi cati o n
management on a mo mhl y basis, and more o!ien if ncedt~d . T he docto r stated it never occurred to
he r to ask for the servi ce plan as s he knew the child and the type o f treatment he was receiving.

Sample 69:

The doctor stated s he had treated the patient fo r approximatel y a year a nd a halfand s he saw him
o nce a mo nth primari ly for medicati o n managem.:nt. T he doctor stated she signed the
reauthorization based on he r own clinical opinion and knowledge of the child's needs. She also
considered the assessments and opinions of the child's family specialist. case worker and his
therapist.

Sample 70 :

The doctor s tated he si.gncd the reauthorization based on hi s own knowledge o r the patient and the
in!Cmmltion reported to him by the ch ild ' s other treatment providers .

Sample 76:

T he doctor treated the patien t for two years a nd durin g that tim e saw the patient on a monthly basis.
Prior to s igning the reamhori7..ation, the doctor reviewed the case specialist' s notes wh ich he
described as very thoro ugh . lt was the doctor's o pinion the case specialist knew the c hi ld best o ut of
all the treat me nt provider~.

Sampk94:

The doctor said she saw the pmient on a monthly basis. She stated s he did not review the FI3T c hart
but she us uall y pulls the c linic chart w review. She a lso ~tmcd s he sees the fati1 ily of the c hi ld .

The above examples are representative of the cases determined by the OlG auditors to be
noncompli ant with t.he State's requirement, despite it being c lear that service reauthorization was
made by physicians based upon a n inl<.mned dec is ion of clinical need. T he recommendation or a
disallowance based upon a narrow reading of o nly a portion of the app licabh:: regulatio ns is a
mis interpre tation and misapp licatio n of those regulations which is un warran~ed and excess ive.

C laim not suppol·tcd bv rfquired number of services

The O!G disallowed 9 claims alleging the recipien t was not in residence for the minimum number of
days requ ired for a monthl y claim .

"'In residence'' means c urrenily admi tted tO a nd resid ing in a family based treatment pmgram a nd not
o n leave as a n inpatien t of any hosp ita l for any reason , o r temporari ly residing in a ny other licensed
residential faci lity. ror a family based treatment program, a re im bursable contact may occur at or
away from the pi'ogram. except a reimbu rsable service may not occur at the site for a licensed mental
heal th program. As such . reimbursable contacts can occur at rhe tamily home . Best practice
requires family based treatment providers to frequently arrange for the you th to go home to a parent
and or guardian for weekend visits. Th..:sc days do not cons titute di$chargc. hut in :some cases. the
O!G auditors cou nted these days as tht.: youth not being ·'in r..:sidcnce."

                                                      4
                                                                                                          Page 6 of6




Independent review

The State has hired an independent company, Behavioral Organ izational Consulting Associates
(BOCA ) which is a consulting firm that has conducted evaluations, inspections and reviews in
behav ioral health care since I988, to review a ll of the cases that were audited by the OIG. As such.
BOCA will be reviewi ng all of the charts reviewed by OiG and interviewing the FBT programs
invo lved in the audil. Therefore, the State reserves the ri ght to raise additional concern:; and to
introduce further supporting documentation to refhte these disallowances.

Reco mmen da t io n #2:

The Department·should wo rk with OMH to provide guidan.c e to the provider communi ty on State
regulations for FBT rehabili tation services.

Reco mmend a tion #3:

The Department should work with OMH tO provide guidance to physicians on State regulations and
program req uirements authorizing FBT rehabilitation services .

Recommen da tion #4:

The Depanmellt should improve its monitoring and oversight of the FBT program to ensure
compliance with Federa l and State requirements.

Res p onse to Recommcnd.a tions #2, #3, & #4:

OMH is currently in the process of closing the FBT Program. Th is process began in April of20 II
and as of July 18, 2012, only 4 7 slots remained of the 470 once open. lt is anticipated that all slots
will be c losed by March. 20 13 .

In the past, OMH has provided guidance documents concerning State regulations and program
req uiremems. Give n the program is now nearing elimination, OMH and the Department will
evaluate the practicality of reissuing guidance to the provider community and physicians.

OMI·I's Bureau of Inspection and Certification will continue its o ngoing mo ni toring and oversight of
the program until the remain ing beds are closed. If during that time any ways for improvement can
be identified by OMH and the Department, they will orcourse be implemented.

Summan':

T he recommended disallowance is based upon a misapplication of State regulations. The majority
of the OlG's fin dings arc based on alleged violations ofthe State ' s program regulations, which
would not have rendered the services non-reimbursable. It is only when a provider ofservice does
not meet the State·s reimbursement rules and regulation~ tl1at OMH would make a referral to the
Department for the recovery of an overpayment.




                                                   5
